                            SOCIAL SECURITY
                                     June 18, 2002

The Honorable Gil Gutknecht
House of Representatives
Washington, D.C. 20515

Dear Mr. Gutknecht:

In response to your March 1, 2002 letter, I am pleased to provide you the enclosed
report regarding the processing of Social Security number (SSN) applications at the
Rochester, Minnesota, field office.

Our objective was to determine whether the Rochester, Minnesota, field office was
properly enumerating noncitizens who applied for SSNs. To achieve our objective, we
visited the Rochester field office to review its controls for enumerating noncitizens,
tested a sample of noncitizen applications, assessed trends in the field office's
noncitizen enumeration data, and reviewed prior audit findings related to SSA's
enumeration process.

The enclosed report contains information related to our assessment of:

   ·   Evidentiary documents provided for a sample of noncitizen applications that led
       to the issuance of SSNs.
   ·   The Rochester field office's adherence to SSA's enumeration procedures for
       accepting evidentiary documents.
   ·   The Rochester field office's volume and percentage of SSNs issued to
       noncitizens in comparison to the rest of the Chicago Region.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact Douglas Cunningham, Special Agent at (202) 358-6319.

                                             Sincerely,




                                             James G. Huse, Jr.
                                             Inspector General

Enclosure

cc:
Jo Anne Barnhart, Commissioner



            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

     Noncitizen Enumeration at
the Social Security Administration’s
       Rochester, Minnesota
             Field Office
            A-03-02-22078




             JUNE 2002
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                     Background
Enactment of the 1935 Social Security Act1 established the Social Security
Administration (SSA) and authorized SSA to set up a recordkeeping system. As a
result, SSA established the Social Security number (SSN). An individual requesting a
SSN must submit an Application for a Social Security Card (Form SS-5) and evidence
of age, identity, and U.S. citizenship or noncitizenship status. Additionally, a noncitizen
must provide documentation from the Immigration and Naturalization Service (INS)
authorizing him or her to work in the United States. (Appendix B provides more detailed
information on SSA’s enumeration process and the required evidence.) After an
application is processed, the SSN is assigned centrally from SSA’s Headquarters based
on the data input from the field office (FO). SSNs are normally assigned within 24 hours
after the application is processed, if there are no issues with the application during
processing.

In Fiscal Year 2001, SSA issued over 18.4 million original and replacement SSN cards.
Approximately 1.5 million of the original SSN cards were issued to noncitizens. In
recent audits and investigations, we have shown that SSA has processed SSN
applications based on false documentation. Although SSA has implemented several
initiatives to address enumeration weaknesses, we believe SSA remains at risk in the
enumeration area. Appendix C contains a list of recent SSA initiatives to improve the
integrity of the enumeration process.

On March 1, 2002, Congressman Gutknecht, issued a letter to the Inspector General of
SSA. In that letter, Congressman Gutknecht requested that the Office of the Inspector
General (OIG) audit the SSA FO in Rochester, Minnesota. Congressman Gutknecht
specifically requested an audit of the noncitizen enumeration process at the FO. In
response to the Congressman’s request, we conducted an audit to determine whether
the Rochester FO was properly enumerating noncitizens who applied for SSNs. To
achieve our objective, we visited the Rochester FO to review its controls for
enumerating noncitizens, tested a sample of noncitizen applications, assessed trends in
the FO's noncitizen enumeration data, and reviewed prior OIG audit findings related to
SSA's enumeration process. We sampled 50 SSN applications from a population of
1,071 noncitizen original applications2 processed by the Rochester FO between
January 2001 and March 2002.3




1
    P.L. 74-271.
2
  "Original" applications relate to the first issuance of an SSN. Any later issuances of the same SSN are
referred to as "replacement" applications and SSNs.
3
    See Appendix E for our sampling methodology.



Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)                                  1
                                                 Results of Review
In 49 of the 50 noncitizen SSN applications we reviewed, the Rochester FO complied
with existing SSA policies and procedures prior to assigning the SSNs. However, in
2 of these 49 cases, the required verification was insufficient to detect invalid
immigration documents. SSA, as a whole, needs to improve its procedures for verifying
noncitizen evidentiary documents, as we have reported to SSA in the preliminary results
of a separate nationwide audit of SSA's procedures in this area.4

Verification of Noncitizen Evidentiary Documents
Our review of a sample of noncitizen SSN applications processed at the Rochester FO
indicated 4 percent of the applications involved invalid immigration documents. We
verified with the INS the evidence submitted for 50 randomly selected noncitizen SSN
applications. Of those 50 applications, we identified 2 instances where the INS could
not verify the evidentiary documents submitted by the applicants. As a result, these
SSNs should not have been assigned. We referred these two cases to our Office of
Investigations.

The two cases involved individuals from South Africa and Ghana who were enumerated
with invalid immigration documents. A review of the Form SS-5 applications indicated
that both individuals presented passports and INS immigration documents claiming they
were issued Diversity Visas by the Department of State.5 Their applications showed no
evidence that FO staff attempted to verify the authenticity of the immigration information
before SSA issued the SSNs. However, SSA's policies and procedures did not require
such verification when the staff believed the underlying documents were valid. We
discuss SSA’s procedures in more detail in Appendix B.

The 4-percent error rate in our sample at the Rochester FO is lower than the error rate
we found in an ongoing nationwide audit of SSA's noncitizen enumeration process.4
Preliminary results of our nationwide audit of SSA's procedures for verifying documents
submitted with SSN applications, indicate that approximately 96,000 (8 percent) of the
1.2 million original SSNs assigned to noncitizens in Calendar Year 2000 may have been
based on invalid immigration documents.

Adherence to SSA's Procedures for Reviewing Evidentiary
Documents

4
 SSA Continues Assigning Original SSNs to Foreign-Born Individuals Who Present Invalid Evidentiary
Documents (A-08-02-12056), draft report currently pending.
5
 The Diversity Visa lottery is an annual process run by the Department of State. This process offers up to
55,000 permanent resident visas each year to randomly selected applicants from eligible countries. The
program is administered by the Department of State's National Visa Center, in Portsmouth, New
Hampshire.


Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)                               2
In our review of a sample of noncitizen applications, we determined that, while most of
the evidentiary documentation provided was appropriately reviewed and verified, the
Rochester FO did not always adhere to SSA's policies and procedures. We found one
instance out of 50 where FO staff did not properly verify immigration documents related
to an application from an individual seeking asylum.6

SSA's policies and procedures require that FO staff verify noncitizen evidentiary
documentation (1) through visual inspection, including the use of a black light where
appropriate, and/or (2) with the INS through online or manual verification. However,
verification of evidentiary documentation with the INS is mandated in certain cases.

      ·   As of April 2001, FO staff must verify evidentiary documentation related to
          asylum applicants.7

      ·   As of January 2002, FO staff must verify evidentiary documentation related to
          refugees with the Department of State, Refugee Data Center.8

Of our 50 sampled noncitizen applications, SSA’s policies and procedures required INS
verification of documentation for only 4 of the noncitizen applications—3 asylum
applicants enumerated after April 2001 and 1 refugee enumerated after January 2002.

The refugee application was processed according to SSA's policies and procedures, but
one of the three applications from individuals seeking asylum was not. We found no
indications that SSA staff properly verified documents related to one application for an
individual seeking asylum. This application related to a Somalian who entered the
country in July 2001 and was issued a SSN by the Rochester FO in October 2001.
While FO staff marked "asylum" on the application and performed some of the required
verification steps before issuing the SSN card—such as verifying the document online
with INS—further verification was required. According to SSA’s procedures, FO staff
should have also contacted the Executive Office of Immigration Review to determine the
status of the individual's application for asylum and then verified the document with the
INS. In our later verification with INS, we found the individual's documentation was
valid. Nonetheless, FO staff should have performed and documented this required step
to ensure the validity of the underlying immigration documents before issuing the SSN.

Noncitizen SSN Issuance Trends at the Rochester FO
Our review of data related to all noncitizen SSNs issued by the Rochester FO indicates
the office's issuance rate for noncitizen SSNs was above average for SSA’s Chicago
6
  Asylum may be granted to people who are already in the United States and are unable or unwilling to
return to their home country because of persecution or a well-founded fear of persecution because of
race, religion, nationality, membership in a particular social group, or political opinion.
7
    Instruction update EM-01061, April 4, 2001.
8
 Instruction update EM-02009, January 29, 2002. These instructions also noted that SSA entered into
an agreement with the Department of State for additional verification of refugee documentation.


Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)                              3
Region.9 However, Rochester serves a diverse population—including a number of
noncitizens relocated by the Department of State—which could account for the above
average number of noncitizen SSNs issued.

We compared the Rochester FO noncitizen SSN issuance rate to the rate for all
224 FOs in the Chicago Region for a 15-month period. As a percent of its overall
workload, the Rochester FO's noncitizen SSNs represented about 47 percent more of
the office's workload than the average FO in the region (see Table 1). The number of
noncitizen SSN cards issued was 1,725 compared to the regional average of 1,392
noncitizen SSN cards. However, this variance may be related to the diversity of the
population the Rochester FO serves.

     Table 1: Rochester FO and Chicago Region Issuance of Noncitizen SSNs

                                      All Cards                                   Noncitizen
           Social Security Cards     (Citizen and                 Noncitizen      Percent of
                  Issued             Noncitizen)                    Cards         All Cards
      Rochester FO                     13,639                       1,725             12.6
      Chicago Regional Average         16,210                       1,392              8.6
      Percent Above Regional Average                                                  46.5

Our analysis indicated that the Rochester FO serves a demographically diverse
community that could lead to a higher rate of noncitizen enumeration than other FOs
within the Chicago Region. See Appendix D for the entry status and country of origin
related to the 50 noncitizens in our sample. Rochester is Minnesota’s fifth largest city.
According to a recent Department of Housing and Urban Development community
profile,10 "Rochester has become a haven for Arabic and Asian immigrants as well as
refugees from Somalia, the Sudan and Bosnia…." Another report from the Department
of State noted that in FY 2000, 74 percent of newly arrived refugees resettled in
15 States, with Minnesota representing about 4 percent of this resettled group.11 In
addition, SSA FO staff noted that a number of local institutions—such as the Mayo
Clinic and an IBM plant—also attract workers from other countries.

Minnesota's State Demographic Center has also noted that Minnesota has a strong
economy and "…many low-paying jobs in food processing, meat and poultry packing,
agriculture and hospital industry."12 Some of these same industries are located in the

9
 SSA's Chicago Region comprises the FOs in Illinois, Indiana, Michigan, Minnesota, Ohio, and
Wisconsin.
10
  "Economic Analysis," Homes & Communities: Minneapolis Office, Department of Housing and Urban
Development, www.hud.gov/local/min.
11
  Proposed Refugee Admissions for FY 2002 -- Report to the Congress Released by the Bureau of
Population, Refugees, and Migration, Department of State, August 2001.
12
  Immigrants in Minnesota: An Increasingly Diverse Population, Minnesota State Demographic Center,
December 2000.


Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)                           4
Rochester area. However, the report notes that many young Minnesotans are not
attracted to such jobs. As a result, recent immigrants—and even illegal aliens—can find
work in these industries. This same report noted that the INS estimates 25,000 illegal
aliens reside in Minnesota, while a separate Hispanic advocacy group13 estimates that
Minnesota contains between 18,000 and 28,000 undocumented Hispanic workers.




13
     Hispanic Advocacy and Community Empowerment through Research.


Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)            5
                                                            Conclusions
In 49 of the 50 noncitizen SSN applications we reviewed, the Rochester FO complied
with existing SSA policies and procedures prior to assigning the SSNs. However, in
2 of these 49 cases, the required verification was insufficient to detect invalid
immigration documents. SSA, as a whole, needs to improve its procedures for verifying
noncitizen evidentiary documents, as we have reported to SSA in the preliminary results
of a separate nationwide audit of SSA's procedures in this area.

Rochester, like many U.S. cities, faces an influx of noncitizens who will need to be
enumerated to participate in the U.S. economy. Whether SSA is dealing with a citizen
or a noncitizen, the enumeration process needs to be grounded in valid evidentiary
documentation. In the case of noncitizen enumeration, the best way to ensure proper
enumeration is to verify all documents noncitizens provide before issuing SSNs,
regardless of the time delay required for the individual to obtain a SSN. While SSA
should strive for timely customer service, this must be balanced with the integrity of the
enumeration process and Homeland Security concerns.

Since we are completing a separate nationwide review of SSA’s procedures for verifying
evidentiary documents—and we expect to make recommendations to address the
Agency as a whole in that report—we are not making recommendations in this report.




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)                   6
                                       Appendices
  Appendix A – Acronyms
  Appendix B – Enumeration Process
  Appendix C – Enumeration Task Force
  Appendix D – Characteristics of 50 Noncitizens
  Appendix E – Scope and Methodology
  Appendix F – Prior Office of the Inspector General Reports
  Appendix G – OIG Contacts and Staff Acknowledgements




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)
                                                                             Appendix A
Acronyms
    ASVI               Alien Status Verification Index

    DoS                Department of State

    EOIR               Executive Office for Immigration Review

    FO                 Field Office

    INS                Immigration and Naturalization Service

    MES                Modernized Enumeration System

    OIG                Office of the Inspector General

    POMS               Program Operations Manual System

    RDC                Refugee Data Center

    SAVE               Systematic Alien Verification for Entitlement

    Form SS-5          Application for a Social Security Card

    SSA                Social Security Administration

    SSN                Social Security Number




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)
                                                                                 Appendix B
Enumeration Process
In Fiscal Year 2001, the Social Security Administration (SSA) issued over 18.4 million
original and replacement Social Security number (SSN) cards. Approximately
1.5 million of the original SSNs were issued to noncitizens. When SSA assigns a SSN
or issues a Social Security card, it is critical that SSA independently verifies the
authenticity of the birth records, immigration records, and other identification documents
the applicant presented.

How SSA Assigns Original SSNs
When an individual applies for an original SSN, he or she must first complete, sign and
submit an Application for a Social Security Card (Form SS-5) to a SSA field office (FO).1
SSA requires the applicant to provide acceptable documentary evidence of (1) age,
(2) identity, and (3) U.S. citizenship or lawful alien status.2 Upon submission, the FO
employee enters applicant information and a description of the evidence presented into
the Modernized Enumeration System (MES).3

If, after reviewing the application and supporting evidentiary documentation, the FO
employee believes the documents and information are valid, he or she certifies the
application for overnight validation.4 Once entered and certified in MES, the SSN
application undergoes numerous automated edits. For example, SSA’s programs
compare the applicant's name and date of birth with existing SSN records to ensure the
Agency has not previously assigned a SSN to the individual. If the application passes
all of these edits, MES issues a SSN card.

Evidentiary Documents Submitted
Evidence of Age: To verify an applicant's age, SSA requests a birth certificate issued
by a State or local Bureau of Vital Statistics, which was established before the applicant
reached 5 years of age. Common examples of documents used to establish a



1
  Most applicants may either mail the application and supporting documents to a SSA FO or personally
visit the office. However, according to SSA's Program Operations Manual System (POMS), sections
RM 00202.055A and RM 00203.001A, if the individual is age 18 or older, he or she must present the
application in person and must participate in an interview with FO personnel.
2
    POMS, section RM 00203.001A.
3
 POMS, section RM 00202.255, and Modernized System Operations Manual, chapters 301-C-5 and
302-A-6.
4
    POMS, section RM 00202.260A.


Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)                         B-1
noncitizen's age are a foreign birth certificate, passport, or Immigration and
Naturalization Service (INS) record.5

Evidence of Identity: An identity document submitted as evidence must be recently
issued and provide information so FO personnel can compare its contents with Form
SS-5 data and/or with the applicant's physical appearance. Acceptable identity
documents are driver's licenses, passports, school identification cards, marriage or
divorce certificates, or military records. For foreign-born applicants, SSA accepts as
evidence of identity an INS document—submitted as evidence of age—only if the
applicant has no other document of probative value for identity and is a refugee,
parolee, or asylum applicant.6

Evidence of Work Authorized or Lawful Alien Status: Applicants who allege a
foreign place of birth and/or who are not U.S. citizens must submit evidence supporting
either lawful alien status and/or the INS-granted work authorization.7 INS issues
numerous documents that indicate the status and class of aliens. For example, the
Form I-551, Permanent Resident Card, establishes the alien as lawfully admitted for
permanent residence.

An example of INS documents issued to support the lawful alien status for a student are
the Form I-94, Arrival/Departure Record and the Form I-20, Certificate for Eligibility for
Nonimmigrant Student Status, which show the "F-1" (student) class of admission. Also,
INS issues numerous documents acceptable as evidence of employment authorization.
Some examples of documents that establish work authorization for nonimmigrants are
the Form I-94 that has the alien's classification displayed; the "employment
authorization" that is shown on a Form I-94 for a refugee; the annotation on the Form I-
20 for certain F-1 students; or the INS Employment Authorization Document.

VERIFICATION OF EVIDENTIARY DOCUMENTATION WITH THE INS
SSA has a number of electronic and paper interfaces with INS to verify evidentiary
documents provided during the application process. The use of a particular INS
process relates to whether an individual is a refugee, permanent resident alien, parolee,
seeking asylum, or another type of visa holder. SSA's policies and procedures require
that FO staff verify noncitizen evidentiary documentation (1) through visual inspection,
including use of a black light where appropriate, and/or (2) with the INS through online
or manual verification. Verification of evidentiary documentation with the INS is
mandated in certain cases.

      ·   As of April 2001, FO staff must verify evidentiary documentation related to

5
    POMS, section RM 00203.110.
6
    POMS, section RM 00203.200.
7
    POMS, section RM 00203.400.



Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)               B-2
          applicants seeking asylum.8

      ·   As of January 2002, FO staff must verify evidentiary documentation related to
          refugees with the Department of State, Refugee Data Center.9

Below are definitions of the primary verification interfaces.

Systematic Alien Verification for Entitlements (SAVE): The SAVE program provides
a method of document verification within an automated environment. The Alien Status
Verification Index (ASVI) data base, part of SAVE, contains certain biographic
information and current status on over 25 million aliens. Each FO must verify INS
documents submitted via the ASVI system. With this data base, FO staff can enter an
alien's registration number and determine whether the information alleged by the
applicant is valid. If ASVI cannot verify the document, a manual verification is required
via the additional processes described below.

Executive Office for Immigration Review (EOIR): The EOIR is an INS case status
telephone line available to SSA’s FO personnel to determine whether an applicant has
been granted asylum or there is an appeal pending on the particular case. As of April
2001, INS considers aliens granted asylum to have permanent employment
authorization and requests that SSA treat them as permanent resident aliens for
enumeration purposes.

Direct INS Verification: A Document Verification Request (Form G-845) is part of the
manual verification process required by SAVE. This method is used to validate alien
documentation after primary verification, when appropriate, or in those situations when
verification through SAVE is not applicable. This procedure, conducted by INS, consists
of checking other indices available only to INS and returning a response to SSA within
20 days of receipt.

Refugee Data Center: SSA has entered into an agreement with the Department of
State (DoS) to verify a refugee's status with the DoS’ Refugee Data Center (RDC) when
SSA cannot verify refugee status by a SAVE query. Refugees often apply for SSNs
within days of arriving in the United States and before data is available online in an INS
data base. Since RDC data accurately reflects refugee information—including the
information that INS admitted the person as a refugee—SSA now requires verification of
refugee status by DoS when verification is not available via SAVE. The RDC data base
also includes some biographical information as well as other data about refugees that
may help to confirm an applicant's identity. SSA and DoS have established a procedure
for FO staff to fax verification requests directly to the RDC. RDC staff will respond to



8
    Instruction update EM-01061, April 4, 2001.
9
 Instruction update EM-02009, January 29, 2002. These instructions also noted that SSA entered into
an agreement with the Department of State for additional verification of refugee documentation.


Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)                        B-3
SSA’s requests within 1 business day by faxing printouts of the information contained in
RDC records. The RDC staff will also respond to telephone requests in emergency
situations.




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)           B-4
                                                                             Appendix C
Enumeration Task Force
Recognizing the Social Security numbers' (SSN) importance in noncitizens' assimilation
in U.S. society, the Social Security Administration (SSA) established an Enumeration
Task Force to examine and establish policy that would strengthen the Agency's
procedures. On November 1, 2001, SSA's then-Acting Commissioner issued a
memorandum to SSA executive staff announcing seven reforms the Enumeration Task
Force recommended and the Agency would implement to address enumeration-related
vulnerabilities. In that memorandum, the then Acting Commissioner committed that
SSA would institute these reforms by February 2002. Additionally, the Enumeration
Task Force added another planned initiative to the list after the November 2001
memorandum, bringing the total short-term projects to eight. SSA has implemented
several of these initiatives, while others have been delayed. These initiatives are as
follows.

1. Provide refresher training on enumeration policy and procedures, with emphasis on
   enumerating noncitizens, for all involved staff.

2. Convene a joint task force between SSA, the Immigration and Naturalization Service
   (INS), the Department of State (DoS), and the Office of Refugee Resettlement to
   resolve issues involving enumeration of noncitizens, including working out
   procedures for verifying INS documents before SSNs are issued.

3. Eliminate a driver's license as a reason for issuing a nonwork SSN.

4. Provide an alternative to giving out a Numident printout for SSN verification.

5. Lower the age tolerance from age 18 to age 12 for mandatory interview procedures;
   verify birth records before enumeration for all applicants age 1 and older for original
   SSNs; and require evidence of identity for all children, regardless of age.

6. Determine the feasibility of photocopying (or scanning) all documentary evidence
   submitted with SSN applications.

7. Change the Modernized Enumeration System to provide an electronic audit trail,
   regardless of the mode used to process SSN applications.

8. Implement the SSN Verification System.

Additionally, SSA's Enumeration Task Force recommended that the Agency seek
independent verification of all noncitizen documents before assigning SSNs. We
believe this action will have a positive impact on preventing the assignment of SSNs
based on fraudulent documents. SSA’s current implementation plan is to verify all


Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)             C-1
evidentiary documents in field offices with a low volume of noncitizen applications
beginning on July 1, 2002; and in all its field offices nationwide by September 1, 2002.
As a result, SSA will continue to issue SSNs to noncitizens without obtaining
independent verification of evidentiary documents from the issuing agency for a few
more months.




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)             C-2
                                                                                Appendix D
Characteristics of the 50 Noncitizens
Figure D-1 provides the Immigration and Naturalization Service entry status for the
50 noncitizens in our sample. In addition, Table D-1 provides the country of origin for
these same noncitizens.


                 Figure D-1: Entry Status of Noncitizens
                     Among 50 Sample Applications
                                   3
                          3
                                                 12          Refugees
                      4                                      Family of U.S. Citizens
                                                             Visitors
                 2                                           Other
                                                             Students
                  5                                          Business
                                                             Seeking Asylum
                                                   11
                                                             Diversity Visa

                              10
            Note: Diversity Visa count includes two cases that INS could not confirm.




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)                D-1
        Table D-1: Place of Origin for our Sample of 50 Applicants

                                                                     Number of
              Continent                    Country                   Applicants
                                           Ethiopia                       2
                                            Ghana                         2
                 Africa                     Kenya                         3
                                           Somalia                        9
                                         South Africa                     1
                 Total                                                   17
                                             China                        6
                                             India                        3
                 Asia                       Japan                         1
                                            Jordan                        1
                                           Malaysia                       2
                                           Pakistan                       1
                                           Vietnam                        1
                 Total                                                   15
                                     Bosnia-Herzegovina                   4
                                         Germany                          2
                                           Greece                         1
                Europe
                                        Netherlands                       2
                                          Romania                         1
                                      United Kingdom                      1
                 Total                                                   11
                                            Canada                        2
            North America                 El Salvador                     1
                                            Mexico                        3
               Total                                                      6
           South America                     Brazil                       1
               Total                                                      1
            Grand Total                                                  50




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)        D-2
                                                                             Appendix E
Scope and Methodology
To meet our objective, we:

   ·   visited the Rochester, Minnesota field office (FO) to perform a walk-through of
       the FO’s Application for a Social Security Card (Form SS-5) enumeration
       process;
   ·   met with Social Security Administration (SSA) staff in the Chicago Region;
   ·   obtained national enumeration statistics; and
   ·   reviewed a sample of Social Security number (SSN) applications to determine
       whether the underlying documents were valid.

To develop a population of applications for testing, we obtained a data extract from
SSA's Modernized Enumeration System (MES) Transaction History File. Our extract
included 1,071 noncitizens who applied for original SSNs between January 2001 and
March 2002 at SSA’s Rochester FO. From this extract, we sampled 50 SSN
applications to determine whether (1) the Immigration and Naturalization Service (INS)
could verify the underlying evidentiary documents presented to SSA, and (2) the
Rochester FO staff had reviewed the applications in accordance with SSA's policies and
procedures.

We also compared the Rochester FO’s enumeration statistics to the Chicago Region's
statistics to determine whether enumeration workload trends were consistent with the
rest of the region. For this analysis, we reviewed both original and replacement SSN
application data for citizens and noncitizens.

Our audit did not include a test of information systems to verify the completeness and
accuracy of the MES file. Our work was conducted at the SSA FO in Rochester,
Minnesota and in Philadelphia, Pennsylvania. We conducted our field work between
April and May 2002. The SSA entity responsible for the maintenance of the MES is the
Office of Central Operations within the Office of the Deputy Commissioner of
Operations. Our review was conducted in accordance with generally accepted
government auditing standards.




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)
                                                                             Appendix F
Prior Office of the Inspector General Reports
     Social Security Administration, Office of the Inspector General
          Reports Related to Social Security Number Integrity
                    Name and Common                                      Date Report
                   Identification Number                                   Issued
  Using Social Security Numbers to Commit Fraud                           May 1999
  (A-08-99-42002)
  Procedures for Verifying Evidentiary Documents
  Submitted with Original Social Security Number
  Applications (A-08-98-41009)                                         September 2000
  Audit of the Enumeration at Birth Program
  (A-08-00-10047)                                                      September 2001
  Replacement Social Security Number Cards:
  Opportunities to Reduce the Risk of Improper Attainment
  and Misuse (A-08-00-10061)                                           September 2001
  Congressional Response Report: SSN Misuse - A
  Challenge for the Social Security Administration                      October 2001
  (A-08-02-22030)
  Congressional Response Report: Terrorist Misuse of
  Social Security Numbers                                               October 2001
  (A-08-02-32041)
  Social Security Number Integrity: An Important Link in
                                                                             May 2002
  Homeland Security (A-08-02-22077)




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)
                                                                             Appendix G
OIG Contacts and Staff Acknowledgements
OIG Contacts
   Rona Rustigian, Director, Northern Audit Division (617) 565-1819

   Walter Bayer, Deputy Director, (215) 597-4080

Acknowledgments
In addition to those named above:

   Francis Trzaska, Auditor

   Donna Parris, Auditor

   Carol Ann Frost, Computer Specialist


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-03-02-22078.




Noncitizen Enumeration at SSA’s Rochester, MN Field Office (A-03-02-22078)
                           DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                  1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                                1
Assistant Inspector General for Investigations                                   1
Assistant Inspector General for Executive Operations                             3
Assistant Inspector General for Audit                                            1
Deputy Assistant Inspector General for Audit                                     1
 Director, Systems Audit Division                                                1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Team Leaders                                                                    25
Income Maintenance Branch, Office of Management and Budget                       1
Chairman, Committee on Ways and Means                                            1
Ranking Minority Member, Committee on Ways and Means                             1
Chief of Staff, Committee on Ways and Means                                      1
Chairman, Subcommittee on Social Security                                        2
Ranking Minority Member, Subcommittee on Social Security                         1
Majority Staff Director, Subcommittee on Social Security                         2
Minority Staff Director, Subcommittee on Social Security                         2
Chairman, Subcommittee on Human Resources                                        1
Ranking Minority Member, Subcommittee on Human Resources                         1
Chairman, Committee on Budget, House of Representatives                          1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
              Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
